                              CLOSEOUT FOR M93 120063
        This case was brought to the attention of OIG by Dr.    my              a program director




-                                                                                       -
in the Division o           f            f                             b-4
                                                       ' of the Directorate
on December    m,          '-L
                   1993. Dr.                       a faculty member at a              n
reviewer of an NSF proposal, informed the program officer that one of the proposal's figures
                                                                                                d

had been reproduced from a published article by another scientist; however, the figure was not
cited to the source docugent. The proposal                            entitled, " f
                                                                                  l
                                                                                  -
                                                                                  I
                                                             " was submitted by Dr.
          the subject. The subject is a faculty member- at 4


        The subject's proposal contained 12 figures and one table. A comparison of the figures
in the proposal to the other scientist's published paper suggested that two of the proposal's
figures had been copied from that paper. Although neither figure legend contained a citation to
the source document, the proposal text preceding the introduction of one of these figures
included a citation to the other scientist's article. All of the proposal figures and the table were
in a different font from the proposal text and the appearance of one figure was remarkably
similar to that seen in published textbooks. None of the figures was accompanied by a citation
to any source documents. One of these figures appeared to come from a publication by the
subject.

         In response to OIG's inquiry into the allegation of plagiarism, the subject acknowledged
that two of the figures in his proposal had been taken from the other scientist's paper. He said
that he had failed to provide a citation in each figure legend, but a citation to that article had
appeared in the proposal bibliography. He also said that a third figure had been "adapted" from
a textbook. A citation to that source document had not been included in the bibliography. He
said that these three figures did not contain new information, but rather contained information
that was common knowledge. He said one of the remaining figures and the table had been
derived from his own prior publications. He explained that the remainder were also his own
work but they looked different than the proposal text because he had created them in a computer
graphics package and then incorporated them into the proposal text. OIG concluded that this last
explanation was reasonable because these latter figures were simple                      reactions
illustrative of specific remarks in the proposal text.

        OIG told the subject that figures copied from a source document must be accompanied
by a citation to that document. Irrespective of the information the figures contain, the original
author must be credited for the material. At OIG's suggestion the subject modified the relevant
figure legends for his proposal to include citations to the source documents and lmodified the

                                           Page 1 of 2                                     M93-63
                              CLOSEOUT FOR M93130063

proposal bibliography to include a citation to the textbook. OIG reviewed and approved the
corrections. To correct the proposal jacket the subject then submitted the correct pages to the
program. The program officer incorporated the corrected pages into the proposal jacket,
replacing the original pages that contained these figures and the bibliography.

        OIG concluded that the subject's citations for three of the twelve figures in his proposal
were insufficient and that his practices in this regard were sloppy and careless. Authors who
find uncited material by them in another scientist's written work generally do not express the
opinion that this action is acceptable if the copied material contains common knowledge, such
as that found in a review articles. Such an action is even less acceptable when the copied
material contains novel research data or ideas. Authors expect that a citation will accompany
any copied material. OIG believes the subject has a better understanding of good citation
practices and that his effort to correct the proposal was the appropriate educational experience
and remedial action in this case.

       OIG closed this case without further action.



cc:    Staff Scientist, Deputy AIG-Oversight, IG




                                          Page 2 of 2
